Before the Committee on Homeland Security
Subcommittee on Management, Integration, and Oversight
U. S. House of Representatives



  For Release on Delivery
  Expected at
                            Lower Manhattan
  2:00 p.m. EDT
  Thursday                  Reconstruction:
  July 13, 2006
  CC-2006-056               Lessons Learned from
                            Large Transportation
                            Projects

                            Statement of
                            Todd J. Zinser
                            Acting Inspector General
                            U.S. Department of Transportation
Mr. Chairman, Ranking Member, and Members of the Subcommittee:

We appreciate this opportunity to testify today on the importance of vigorous
oversight of major transportation projects like those underway in the
reconstruction of Lower Manhattan. The terrorist attacks of September 11, 2001
caused unprecedented damage to New York City’s transportation infrastructure,
including the Port Authority Trans-Hudson (PATH) terminal and the Route 9A
(West Street) highway near the World Trade Center site. The destruction caused
by these attacks is a tragic reminder of the importance of transportation systems in
our everyday lives and why these systems remain prime targets to terrorists.

Our testimony today will address important lessons learned from our work on
federally funded transportation projects across the country that should be applied,
and in some cases are already being applied, to the reconstruction of Lower
Manhattan. Primarily, our audit work at the Office of Inspector General (OIG) has
focused on mega-projects, that is, those infrastructure projects costing more than
$1 billion, while our criminal and civil fraud investigations have focused on
highway, transit, and airport projects where there are indications of fraud
regardless of the size of the project.

Based on this body of work, we believe that certain sound investigative,
management, and oversight practices should be considered wherever major
transportation construction may be undertaken. This seems especially important
in the reconstruction of Lower Manhattan. With the loss of life and with such
significant parts of the transportation system destroyed at the hands of terrorists,
we should do all we can to ensure that the residents of New York and the
American taxpayers get the most from the Federal funding being invested and that
these projects are free of fraud.

Accordingly, we have informed the Department and would like you,
Mr. Chairman, and the Subcommittee to know that we have established an OIG
Lower Manhattan Transportation Oversight Team to support oversight of Lower
Manhattan projects. Although we are a relatively small OIG with limited
resources, compared to the approximately $55 billion that the U.S. Department of
Transportation (DOT) spends annually, we are now able to redeploy resources and
expertise from our work on Boston’s $14.6 billion Central Artery/Tunnel Project,
which is nearly complete.

In response to the extensive devastation caused by the September 11 attacks, the
Federal Government dedicated $4.55 billion for projects to reconstruct and
enhance Lower Manhattan’s transportation infrastructure. These high-priority
projects will require vigilant oversight by DOT, state and local governments, and
transit agencies. The projects are massive in scale and will require oversight of



                                                                                  1
numerous contractors and subcontractors, tracking costs and schedules, and
preventing fraud, among other things.

Over the last few years, our management challenges reports to the Secretary and
Congress have pointed to the need for the Federal Highway Administration
(FHWA) and the Federal Transit Administration (FTA) to strengthen stewardship
over investments in highway and transit projects. 1 As we reported to the Secretary
in November 2005, a 1-percent improvement in the efficiency with which states
managed the $700 billion investment in highway projects over the last 6 years
would have yielded an additional $7 billion for other infrastructure improvements.
Thus, improving efficiency in even a small percentage of the funds invested in the
reconstruction of Lower Manhattan could result in millions of dollars in savings.
FHWA and FTA have been working to strengthen their oversight practices.

Other infrastructure projects in the New York Metropolitan area will add to the
challenges DOT faces. Significant amounts of Federal funding are also being
dedicated to other ongoing transportation projects in the area, most notably the
large-scale East Side Access and the Second Avenue Subway projects. Although
these projects are not being funded with the $4.55 billion, they are still large and
complex and will need proactive DOT oversight. Adding to the challenge, these
transportation projects will have to compete with many other projects in New
York City for contractors, workers, and materials—making it even more important
to focus on sound project and financial management. Overall, within the next 5
years, more than $20 billion in construction work will likely be underway in all of
Lower Manhattan.

OIG’s role in Lower Manhattan will be to provide an independent perspective on
these projects and the oversight activities of the agencies involved. When our
audit work identifies issues, we will alert Federal, state, and local officials—as we
have done on many other large transportation projects. When we receive
allegations of fraud, we will investigate them and refer cases to the U.S. Attorney.
In this regard, our testimony today will focus on the following oversight issues to
consider as the reconstruction of Lower Manhattan continues, and key lessons
learned that could be applied to other major transportation projects.

• DOT must ensure active oversight of Lower Manhattan projects until they
  are completed. Effective day-to-day oversight of the large, complex
  transportation projects in Lower Manhattan and across the country is critical to
  ensuring that projects are completed on time, within budget, safely, and free
  from waste, fraud, or abuse. FTA has the lead oversight role for DOT on
  Lower Manhattan reconstruction and will be challenged by providing sufficient

1
    Report PT-2006-007, DOT’s 2006 Top Management Challenges, November, 18 2005. The report can be accessed on
     our website at http://www.oig.dot.gov/item.jsp?id=1701.


                                                                                                            2
   oversight of the projects involved. Accordingly, as part of the Federal
   commitment, FTA has received nearly $90 million of dedicated funding to do
   so.

   To carry out its oversight responsibilities in Lower Manhattan, FTA has
   created a special oversight office, the Lower Manhattan Recovery Office. The
   Lower Manhattan Recovery Office is separate from FTA’s New York field
   office and its sole purpose is to oversee these high priority projects in Lower
   Manhattan. The Lower Manhattan Recovery Office should employ all of the
   oversight mechanisms and expertise at its disposal to closely monitor these
   projects and, most importantly, quickly mitigate problems as they arise. Doing
   so will help ensure that the projects are delivered in a timely manner and
   within the federally funded amount.

   In over view, it is critical in any future disaster that the Federal agency or
   agencies in charge of reconstruction receive, as part of the emergency funding,
   a sufficient and dedicated amount of funding to provide oversight.

• Key lessons learned by our investigators are that Federal, state, and local
  law enforcement agencies must build coalitions to combat fraud in large
  transportation projects and take aggressive action against those who
  defraud the government. History has shown that substantial infusions of
  funding into an area for relief and/or reconstruction efforts, such as those
  related to the September 11, 2001 attacks, increase the risk of fraud. Our
  special agents have investigated criminal schemes nationwide on large
  transportation projects like those in New York City, including false claims for
  materials and labor, product substitution, collusive bidding, money laundering,
  tax fraud, bribes, schemes involving disadvantaged business enterprises, and,
  in some instances, payoffs to organized crime.

   Since 1999, our New York Office has conducted approximately 31
   investigations related to highway and transit construction/infrastructure
   projects in the New York City Metropolitan area. Since 1999, these cases have
   produced 42 indictments, 26 convictions, and actual or pending financial
   recoveries of over $33 million. Our work has also resulted in Federal
   debarments or suspensions of numerous companies. For example, the owners
   of three family-owned construction firms in the New York Metropolitan area
   were debarred in 2002 for 3 years by FHWA. Also, following their 2001
   guilty pleas they were ordered to forfeit $5 million for their part in a large
   scam involving payoffs to organized crime.

   Our investigative work in New York and across the country offers important
   lessons learned to help combat schemes like these.


                                                                                3
First, build coalitions with other Federal, state, and local law enforcement
agencies—as well as program officials— to prevent and detect fraud. Building
these coalitions allows law enforcement and investigative agencies, as well as
program officials, to leverage resources, share information and expertise, and
undertake joint initiatives. This is already underway in Lower Manhattan with
the Lower Manhattan Construction Integrity Team (LMCIT), which was an
idea suggested by the Lower Manhattan Development Corporation. We were a
founding member of this group, which was formally started in 2004 to prevent
fraud in Lower Manhattan publicly-funded projects. Members now include a
comprehensive range of Federal, state, and local agencies. This group has
developed an array of measures for the prevention of fraud, including
recommended practices for the process of vetting potential contractors,
information sharing, fraud awareness training for contractors’ supervisors and
managers, employee screening and access control to the World Trade Center
site, and use of integrity monitors.

Second, take aggressive action to combat fraudulent activity and have strong
policies in place to send a message that defrauding the U.S. Government will
not be tolerated. There are many ways to take aggressive action to prevent
fraud and protect tax payer dollars. For one, Federal, state, and local program
staff should always be alert to possible instances of fraud and use existing
mechanisms, such as fraud hotlines, to report suspected fraud early on. Timely
reporting of possible fraud is critical so allegations may be promptly
investigated. For example, we maintain a hotline that can be accessed at
http://www.oig.dot.gov/Hotline. Tips specifically related to Lower Manhattan
projects can be submitted at http://www.lowermanhattan.info/.

It is important that when investigators identify fraud and collect sufficient
evidence related to criminal schemes or civil fraud that the U.S. Attorney’s
Office act upon it. In some instances, they should accept cases for prosecution
that may not otherwise meet their prosecutorial threshold (e.g., the dollar
amount of the fraudulent activity) as a deterrent to others who might attempt to
defraud the government.

Finally, in 2005, Secretary Mineta signed a DOT-wide order strengthening the
Department’s suspension and debarment policies. Such policies prevent
individuals or contractors who have been indicted or convicted of fraud from
receiving Federal contracts for a period of time. We believe that such policies
are critical to protecting tax payer dollars from irresponsible contractors.




                                                                              4
• A key lesson learned from our auditors is that a set of sound management
  and oversight tools should be used by Federal, state, and local agencies to
  ensure that large transportation projects are completed effectively and
  efficiently. These tools are fundamental and universally applicable to all
  federally funded transportation projects. It will be important to rigorously
  employ them in the reconstruction of Lower Manhattan.

   They include ensuring that sound project and financial management practices
   are in place, preparing reliable cost estimates, carefully managing project
   schedules to minimize costly delays, implementing more cost-effective
   engineering alternatives, and recovering overpayments from contractors and
   promptly resolving construction claims. Because the total Federal funding
   allocated to the various Lower Manhattan projects is currently fixed, it will be
   even more critical for Federal, state, and local officials to have reliable cost
   estimates and track them closely.

   The Lower Manhattan Recovery Office has adopted a risk management
   approach to keep costs within estimates. This risk analysis process was
   applied early in project development to focus on identifying and mitigating
   project risks and keeping costs within the Federal funding allocated for each
   project. If higher costs are estimated along the way, FTA requires the grantee
   to develop a recovery plan to find ways to keep costs within the funding
   allocations. This is a smart move. Such a cost containment action already
   occurred on the Fulton Street project, requiring a project-wide cost recovery
   plan to address such budget issues as remaining real estate acquisition and
   tenant relocations, a possible re-design of the Transit Center, and
   environmental requirements for building deconstruction. Unless costs are
   aggressively controlled, the costs could easily exceed the $4.55 billion
   currently allocated by the Federal Government, and it is not clear what funding
   sources would cover those increased costs.

DOT Must Ensure Active Oversight of Lower Manhattan Projects
Until They Are Completed
The Federal Government dedicated $4.55 billion to fund large-scale projects to
reconstruct and enhance Lower Manhattan’s transportation infrastructure. Of this
amount, $2.75 billion came from the Federal Emergency Management Agency
(FEMA) and $1.8 billion came from FTA. Through an agreement with FEMA,
FTA was given lead responsibility for distributing and overseeing the use of the
$4.55 billion.

The ongoing projects are the Permanent World Trade Center PATH Terminal,
Fulton Street Transit Center, South Ferry Terminal Station, the World Trade
Center Vehicle Security Center, and the Route 9A/West Street/Promenade

                                                                                 5
highway project (FHWA also dedicated some funding to this highway project in
addition to the portion being funded out of the $4.55 billion and FHWA has
oversight responsibilities as well). More information on these projects is provided
in the exhibit at the end of my statement.

Of the $4.55 billion, nearly $90 million has been dedicated to FTA’s oversight
activities. We support this move and believe a dedicated funding stream for
Federal agency oversight should be replicated in any funding decisions for future
disasters and emergencies.

DOT agencies—whether it is FTA or FHWA—should serve as a key line of
defense in protecting tax payer dollars.       In 2002, FTA created the Lower
Manhattan Recovery Office separate from its New York regional office, which is
unique within FTA. The Lower Manhattan Recovery Office is responsible for
coordinating DOT resources and working with state and local partners to provide
project oversight and technical assistance. We supported the creation of this office
at the time and it may be a model to consider should future disasters necessitate
massive transportation-related reconstruction.

FTA’s Lower Manhattan Recovery Office has hired several contractors to assist in
its oversight responsibilities. For example, it hired a financial management
oversight contractor (FMOC), which was used at the beginning of the projects to
review the financial statements, accounting systems, and internal financial
management of grantees. Currently, the FMOC is used on an as-needed basis. It
also hired project management oversight contractors (PMOC) who are charged
with regularly monitoring major transportation projects and providing feedback to
Federal officials should any problems arise. This is an institutionalized approach at
FTA. The Lower Manhattan Recovery Office’s strategy has been to provide one
PMOC to each grantee. For example, there is a PMOC for the New York State
Metropolitan Transportation Authority's (MTA) Fulton Street Transit Center and
South Ferry Station projects. The PMOC for each project is charged with
conducting risk assessments for projects, reviewing cost and schedules, and
assessing each grantee’s plans for the project. Lower Manhattan Recovery Office
staff told us the PMOCs attend grantee meetings and report back to them, conduct
on-site reviews several times a week to look at construction materials, and review
quality assurance on the project. A key point is that the Office must ensure that it
fully analyzes the results of the contractors’ reports, take action where appropriate,
and exercise its own oversight role in addition to the contractors’ work.

A PMOC may also contract with other experts, as needed, to assist in performing
certain important duties. For example, the Lower Manhattan Recovery Office
determined that its PMOC on the Fulton Street Transit Center did not have
expertise to ensure that MTA met the requirements of the Federal Relocation


                                                                                    6
Assistance Act. Accordingly, the Lower Manhattan Recovery Office directed the
PMOC to hire an outside consultant to evaluate MTA’s relocation program for
businesses and residents who are being displaced by construction of the Fulton
Street Transit Center.

Key Lessons Learned by Our Investigators are That Federal,
State, and Local Law Enforcement Agencies Must Build
Coalitions to Combat Fraud in Large Transportation Projects
and Take Aggressive Action Against Those Who Defraud the
Government

History has shown that substantial infusions of funding into an area for relief
and/or reconstruction efforts, such as those related to the September 11, 2001
attacks, increase the risk of fraud. Our special agents have investigated criminal
schemes associated with transportation projects across the country, including false
claims for materials and labor, product substitution, collusive bidding, money
laundering, tax fraud, bribes, schemes involving disadvantaged business
enterprises, and, in some instances, payoffs to organized crime.

Since October 2002, our nationwide investigations related to surface transportation
projects have resulted in 150 indictments, 91 convictions, $57.64 million in fines,
restitutions, and recoveries, and 94 suspensions or debarments. It is important to
consider that investigating and collecting sufficient evidence to support
prosecution of white collar crimes like these is a labor intensive process that, in
some cases, can take years.

The following examples illustrate the types of schemes we have detected on major
transportation projects across the country, which investigators, program officials,
and even the public should watch for in future projects.
• Payoffs. The owners of three family-owned construction firms in the New
    York Metropolitan area were debarred in 2002 for 3 years by FHWA. Also,
    following their 2001 guilty pleas they were ordered to forfeit $5 million for
    their part in a large scam involving payoffs to organized crime. They issued
    corporate checks to subcontractors as payment for fraudulent invoices. These
    payments were then returned to them as cash.
• Product substitution. Our investigators worked with the Federal Bureau of
    Investigation (FBI), as well as state and FHWA officials, on a case involving a
    Connecticut concrete manufacturer that was fined and forced to pay restitution
    for falsely certifying that concrete catch basins used on a major highway
    project met contract specifications. The manufacturer pled guilty in 2005 and
    was fined and forced to pay restitution totaling half a million dollars.



                                                                                 7
• Bid-rigging. Four executives of two Wisconsin contractors, both of their
  companies, and an employee of a third company were sentenced in 2005 to a
  combined total of over $3 million in fines and restitution and imprisoned, for a
  bid-rigging scheme. Competitors unlawfully decided who was to receive
  which roadway or airport job. They submitted complementary bids to create
  the false appearance of competition on approximately $100 million in publicly-
  funded projects.
• Bribery. In one of our joint cases in New York City, the co-owner of a prime
  contractor pled guilty in 2006 to conspiring to bribe an inspector to facilitate
  approximately $1 million of over-billing on a roadway milling contract. As
  part of the plea agreement, the defendant and his company agreed not to bid on
  any Federal, state or city-funded project for a period of 5 years.
• False Statements. Several Ohio transportation inspectors were convicted
  during 2003-2005 for making false statements regarding the quantity and/or
  quality of bridge-painting work performed by contractors on Federal-aid
  projects. The inspectors received illegal payments to overlook improprieties,
  such as the use of inferior paint and failure to properly sandblast or contain
  lead and hazardous paint waste.
• Prevailing Wage Fraud. The largest highway landscaping company in
  Minnesota, which was the prime contractor on over $4 million in federally
  funded highway construction projects as well as a subcontractor on numerous
  others, and its president, were sentenced in 2006 for conspiring to defraud the
  government by creating and certifying false records that concealed its failure to
  pay workers at the prevailing wage rate.
• Disadvantaged Business Enterprise (DBE) Fraud. A certified DBE firm in
  New York was found to have been used as a “false front” on about 3 dozen
  sub-contracts valued at approximately $21 million and submitted false certified
  payrolls. In 2001, the principal of the company pled guilty to conspiracy
  charges in the case.

Our investigative work in New York and across the country offers important
lessons learned to help combat schemes like these.

First, build coalitions with other Federal, state, and local law enforcement
agencies—as well as program officials—to prevent and detect fraud. Building
broad, interagency coalitions allows law enforcement and investigative agencies,
as well as program officials, to share information, leverage expertise and
resources, and undertake important joint initiatives. States and localities are the
first line of defense against fraud and the Federal law enforcement community
should work closely with them. Also, law enforcement should work closely with
program officials at all levels of government, who can be the first to detect early
indications of fraudulent activity. We are involved in a number of collaborative
partnerships across the country and two in the New York City Metropolitan area

                                                                                 8
are worth mentioning as key success stories that could be replicated elsewhere.
Accordingly, we have tried to spread the word about these initiatives to other parts
of the country.

• For example, we are founding partners in an interagency working group, the
  Lower Manhattan Construction Integrity Team (LMCIT). It was established in
  2004 at the suggestion of the Lower Manhattan Development Corporation to
  prevent fraud in Lower Manhattan publicly-funded projects. The group has
  grown and now includes a comprehensive range of oversight agencies. In
  addition to us, it includes the Lower Manhattan Construction Command
  Center, the Lower Manhattan Development Corporation, the New York City
  Department of Investigation, the New York City Business Integrity
  Commission, the New York State OIG, the New York State Metropolitan
  Transportation Authority’s OIG and Chief Compliance Officer, the OIG of the
  Port Authority of New York and New Jersey, and the OIGs of the
  U.S. Departments of Labor and Housing and Urban Development (HUD).

   LMCIT has developed a range of measures for the prevention of fraud,
   including best practices for the process of vetting potential contractors,
   information sharing, fraud awareness training for contractors’ supervisors and
   managers, employee screening and access control to the World Trade Center
   site, and the use of integrity monitors (also referred to as IPSIGs, or
   Independent Private Sector Inspectors General) to supplement existing
   oversight resources. LMCIT members also share a joint fraud complaint
   hotline, which can be accessed at http://www.lowermanhattan.info/.

• Further, since 1999, we have been a founding member of the Long Island
  Federal Construction Fraud Task Force, established by the U.S. Attorney for
  the Eastern District of New York. This Task Force was organized to
  coordinate investigations into fraud and public corruption in the construction
  industry on Long Island. The Task Force presently consists of prosecutors and
  agents from our Office of Investigations, the Internal Revenue Service
  Criminal Investigation Division, Department of Labor OIG, FBI, the Postal
  Inspection Service, the New York City Department of Investigation, and the
  OIG of the Port Authority of New York and New Jersey. Of the approximately
  22 pending New York City Metropolitan-area construction investigations in
  our New York Office, more than half are being conducted under the auspices
  of this Task Force.

   The impact of the work of the Long Island task force extends beyond the New
   York City Metropolitan area. The unprecedented success of the Task Force
   has led to repeated requests that its members participate in speaking
   engagements, presenting insights, investigative strategies, and techniques to


                                                                                  9
   other law enforcement and oversight organizations. To date, members of the
   Task Force have participated in 14 conferences in 10 states.

• The importance of building coalitions among Federal, state, and local law
  enforcement agencies can also be seen in the areas affected by Hurricane
  Katrina. For example, we and other Federal OIGs are fully integrated into the
  Hurricane Katrina Fraud Task Force, which was created by the Attorney
  General of the United States to detect and deter fraud against the U.S.
  Government in efforts to rebuild the Gulf Coast and provide emergency relief
  for the residents there. The Task Force has mobilized to bring prosecutions as
  quickly as possible to send a strong message of deterrence. We are also an
  active member of a special task force headed by the U.S. Department of
  Homeland Security OIG that coordinates the Hurricane Katrina-related
  auditing and investigative activities of the other Federal OIGs.

   We believe it is important that our investigative activities in the areas
   devastated by Hurricane Katrina are coordinated, information is shared, and
   that we maximize our limited resources. Our agents have conducted
   approximately 50 fraud awareness briefings for various oversight providers,
   FHWA, state transportation department staff, and trade association officials as
   part of our hurricane-related fraud prevention activities.

Second, take aggressive action to combat fraudulent activity and have strong
policies in place to send a message that defrauding the U.S. Government will
not be tolerated. Recognizing the fraud risks inherent in large-scale construction
projects, it is critical that investigative agencies at all levels of government take
aggressive action to combat fraud and abuse of government funds.

• In 2005, Secretary Mineta signed a DOT-wide order strengthening the
  Department’s suspension and debarment policies. Such policies prevent
  individuals or contractors who have been indicted or convicted of fraud from
  receiving Federal contracts for a period of time. We believe that such policies
  are critical to protecting tax payer dollars from irresponsible contractors.
  Secretary Mineta deserves great credit for pushing for these improvements and
  for focusing on reducing fraud, waste, and abuse in DOT programs. It is
  important for all Federal agencies to evaluate their suspension and debarment
  policies and assess what steps can be taken to strengthen them.

• There are other ways to take aggressive action to prevent fraud and protect tax
  payer dollars. For one, Federal, state, and local program staff should always be
  alert to possible instances of fraud and utilize existing mechanisms to report
  suspected fraud early on. Timely reporting of possible fraud is critical so
  allegations may be investigated by law enforcement officials and, if warranted,
  they may take prompt action. Such fraud reporting mechanisms include

                                                                                  10
   internal agency procedures or fraud hotlines. We believe that program staff
   and investigators should always maintain an open flow of information. For
   example, we maintain a waste, fraud, and abuse hotline that can be accessed at
   http://www.oig.dot.gov/Hotline.

• Finally, it is important that when investigators identify fraud and collect
  sufficient evidence related to criminal schemes or civil fraud that the U.S.
  Attorney’s Office act upon it. For example, in 2003, the United States
  Attorney in Manhattan announced the arrests of two individuals for devising
  schemes to fraudulently obtain HUD September 11-related grant funds of
  $5,316 and $3,750. Even though the amount of money involved in the fraud
  was relatively small, actions like these send a message to those considering
  similar schemes.

   In another example, at the direction of the Attorney General, U.S. Attorneys
   have been aggressively prosecuting individuals who engage in Hurricane
   Katrina-related fraud, for example, through debit cards issued to hurricane
   victims to pay for recovery costs, even though the individual dollar amounts
   involved are relatively low. In some cases, it is important for the U.S.
   Attorney’s Office to accept cases for prosecution that may not otherwise meet
   their prosecutorial threshold (e.g., the dollar amount of the fraudulent activity)
   as a deterrent to those who might attempt to defraud the government.

A Key Lesson Learned from Our Auditors is That a Set of Sound
Management and Oversight Tools Should Be Used by Federal,
State, and Local Agencies to Ensure That Large Transportation
Projects are Completed Effectively and Efficiently
Based on our years of work auditing major transportation projects across the
country, we believe a set of sound management and oversight tools should be
considered wherever major construction occurs. These tools are fundamental and
universally applicable to all federally funded transportation projects. It will be
important to rigorously employ them in the reconstruction of Lower Manhattan.

Prepare reliable cost estimates. In some cases, project approvals may be secured
on the strength of cost estimates prepared before the design package is
substantially complete and which contain figures that are far too preliminary. In
the past, we have found that cost estimates for major projects did not include such
routine items as construction management, design, allowances for inflation, or
contingency reserves. Great care must be taken to assure that these preliminary
cost estimates are understood for what they are, and that they do not serve as the
predicate for project approval unless they are thoroughly examined and found to
be reliable and complete.


                                                                                  11
Over the years, we have reported on dramatic increases in the costs of highway
and transit projects—in some cases after construction had begun and they had
already received significant Federal funding. A recent example of unreliable cost
estimating on the highway side is the San Francisco-Oakland Bay Bridge (East
Span) project, where costs nearly doubled from $2.6 billion to $5.1 billion. Also,
the finance plans for the Project had not been thoroughly reviewed as envisioned
by FHWA guidance. On the transit side, we reported in 2001 that the cost
estimates for the Seattle Central Light Rail Link Project went from $2.5 billion to
$4.1 billion in just 7 months.

Because the Federal funding allocated to the various Lower Manhattan projects is
currently fixed, it will be even more critical for Federal, state, and local officials to
have reliable cost estimates and track them closely. In addition, these high-
priority projects are on a very fast track and in some cases designs have been
altered along the way. Thus, it is important to maintain reliable cost estimates and
update them as events change. FTA officials told us they are aggressively using a
risk management approach to keep costs within estimates and that risk analysis
was applied early in project development. If higher costs are estimated along the
way, FTA requires the grantee to develop a recovery plan to find ways to keep
costs within the funding allocations. Such a cost containment action already
occurred on the Fulton Street project, requiring a project-wide cost recovery plan
to address such budget issues as remaining real estate acquisition and tenant
relocations, a possible re-design of the Transit Center, and environmental
requirements for building deconstruction.           Unless costs are aggressively
controlled, the costs could easily exceed the $4.55 billion currently allocated by
the Federal Government, and it is not clear what funding sources would cover
those increased costs.

Focus on Project Management and Financial Oversight of Transportation
Projects. Early and continuous oversight by Federal agencies of states’ project
and financial management practices are key to controlling project costs,
preventing delays, and reducing the potential for safety and environmental
problems. FTA and FHWA have different approaches to overseeing large
transportation projects.

• Transit Projects. FTA has institutionalized the use of project management
  oversight contractors (PMOCs) and financial management oversight
  contractors (FMOCs) to oversee large transit projects and to report to its in-
  house staff on findings and needed corrective actions. They are third-party
  contractors who look at FTA-funded projects in accordance with FTA
  guidance. FMOCs are used to evaluate a grantee’s financial condition and its
  financial capability to construct, operate, and maintain a project. A PMOC is
  retained by FTA to evaluate a grantee’s technical capacity to build, operate,


                                                                                      12
   and maintain a project, and to monitor the grantee’s implementation of a
   project. This is essentially a sound approach that can provide early warnings
   of cost, schedule, and quality problems.

   In addition, FTA requires that grantees submit a project management plan.
   The plan, submitted in support of an application for a full funding grant
   agreement, demonstrates a grantee’s technical capacity to build, operate, and
   maintain the project, together with the grantee’s existing transit system. A
   project management plan is an evolving document, first prepared during
   preliminary engineering, which follows a project through final design,
   construction, and revenue operations.

   We have seen both the strengths and the weaknesses of the PMOC program in
   our work on Puerto Rico’s Tren Urbano project in 2000 and 2002. Our May
   2000 review of Tren Urbano found that the PMOC had discovered and raised
   important schedule and construction quality issues. However, during our
   March 2002 audit we found that Tren Urbano officials consistently reported
   that the estimated cost of the project was $1.9 billion. We discovered that the
   estimated costs had actually increased by 10 percent, but the PMOC had
   accepted Tren Urbano’s prior representations without checking them. All of
   the Lower Manhattan transit projects have a PMOC assigned to them and an
   FMOC is retained on as-needed basis, which is critically important. FTA
   should ensure that the PMOCs are aggressively monitoring the projects and
   that recommendations made by the PMOCs are fully analyzed by the Lower
   Manhattan Recovery Office and expeditiously addressed.

• Highway Projects. Historically, FHWA focused on detailed engineering
  activities and not on project management and financial oversight. FHWA
  performed contract-level administration and engineering activities, such as
  approving contract change orders. Over the past several years, FHWA has
  taken important steps to change its focus.

   As we noted in our DOT 2006 Top Management Challenges report (issued in
   November 2005), we have seen positive signs that FHWA is committed to
   improving its oversight of transportation dollars and is implementing new
   oversight programs. For example, FHWA has established a new Financial
   Integrity Review and Evaluation program. This program calls for FHWA
   division offices in each state to perform oversight of state management
   practices, including assessing management risks, reviewing financial
   management processes, and spot checking a sample of payments on highway
   projects to ensure that Federal funds are properly managed. Sustained and
   effective implementation of this should be a priority for FHWA.


                                                                               13
   Moreover, Congress also made several important changes in the 2005 Safe,
   Accountable, Flexible, Efficient Transportation Equity Act: A Legacy for
   Users (SAFETEA-LU) that are intended to strengthen FHWA oversight. For
   example, finance plans are required for projects exceeding $100 million in total
   cost. Another change is that the $1 billion threshold defining major projects
   was lowered to $500 million. Such major projects are now required to have
   project management plans in addition to the previously required finance plans.
   We strongly support these actions.

   The purpose of the new project management plan program is to serve as a
   “roadmap” to help the project delivery team maintain a constant focus toward
   delivering the major project in an efficient and effective manner by clearly
   defining the roles, responsibilities, processes, and activities. The project
   management plan is supposed to be a living document in which revisions will
   be issued as the project progresses in order to add, modify, or delete provisions
   that will result in the most effectively managed project. These revisions and
   updates to the project management plan will occur prior to issuing the
   environmental decision, prior to authorization of Federal-aid funds for right of
   way acquisition, and prior to authorization of Federal-aid funds for
   construction.

Prepare Finance Plans to Identify Cost, Schedule, Funding and Risks to a
Project. A finance plan is a management tool that is vital in providing project
managers and the public with information on how much a project is expected to
cost, when it will be completed, whether adequate funding is committed to the
project, and whether there are risks to completing the project on time and within
budget. Regularly updated finance plans provide current information about
project costs, financing, schedule, and technical issues to enable Congress, the
Department, states, project managers, and the public to continually evaluate the
progress of a project. Recognizing how significant and critical this basic oversight
tool is, in SAFETEA-LU Congress changed FHWA’s policy regarding finance
plans. Previously, only Major Projects (those over $1 billion at the time) were
required to have finance plans. Now, all projects over $100 million will be
required to have finance plans. This was a positive move.

While the transit projects under the Lower Manhattan Recovery Office’s
supervision are not required to have finance plans, the office has implemented
construction agreements. According to FTA, these agreements were implemented
to help expedite these projects and are analogous to a finance plan. Construction
agreements delineate key terms of the projects, including development and
recovery plans. The construction agreement for each project is reviewed
frequently and must have: (1) a recovery plan, (2) risk assessment process, and
(3) a project reserve.


                                                                                 14
One of the five projects in Lower Manhattan (Route 9A) is mostly a highway
project that is being managed by FHWA—even though it is being partially funded
with FTA dollars. FTA and FHWA have entered into two memoranda of
agreement laying out the types of oversight that FHWA will be expected to
provide, which are different from FHWA’s regular oversight mechanisms and
more similar to the forms of oversight that would typically be found on an FTA
project, including a PMOC on the Route 9A Project, which it normally would not
do. FTA’s agreement with FHWA stipulates that this project must have a finance
plan.

Implement More Cost-Effective Engineering Alternatives. Since 1970, many
industries and Government agencies have successfully employed value
engineering programs to control costs on major projects. The purpose of these
programs is to objectively review all reasonable alternatives during the design
phase to find more cost-effective alternatives. For example, FHWA‘s value
engineering program, established in 1997, requires that a study be performed on
all Federal-aid National Highway System projects with an estimated cost of
$25 million or more and on other projects where using value engineering has a
high potential for cost savings.

Some states have been using value engineering effectively. However, our ongoing
work on value engineering indicates states could be saving tens of millions of
dollars if they would use value engineering studies on more projects and more
frequently adopt the recommendations made during studies that are conducted.

FTA also requires value engineering. To its credit, some of the Lower Manhattan
Recovery Office-supervised projects have already had such studies performed and
the staff told us that recommendations have been implemented. For example,
according to Lower Manhattan Recovery Office officials, savings based on
accepted value engineering recommendations related to the Fulton Street Transit
Center are estimated to be nearly $67 million.

Manage Project Schedules to Minimize Costly Delays. Transportation projects
have become larger and more technically complex in the last decade and require
coordination of the activities of multiple contractors working in a confined
construction area. Accordingly, managing project schedules is a critical function
in efforts to minimize cost growth. The key is to maintain a master schedule that
ties together the work of all the contractors and identifies and tracks the costs of
labor, material, and equipment resources required to complete each task. Master
schedules are referred to as integrated, resource-loaded schedules. These schedules
can identify and prevent schedule conflicts before they occur and can track



                                                                                 15
progress on individual tasks, allowing early action to prevent or mitigate delays,
thereby reducing or preventing cost increases.

Failure to maintain integrated resource-loaded schedules has led to unanticipated
project delays and increased costs. For example, in the past we reported that the
failure to maintain integrated, resource-loaded schedules led to unanticipated
delays and increased costs on the Springfield Interchange Project in Virginia,
including $49 million that were added to project costs.

Effectively managing project schedules will be especially important in Lower
Manhattan due to the pressing need to get these high-priority projects up and
running as quickly as possible and ensure that costs stay within existing Federal
allocations. The significance of managing schedules in the case of Lower
Manhattan cannot be overstated, as each of these projects is large, complex, has
expedited time frames, and will likely require the coordination of numerous
contractors and subcontractors all at once. For example, we were informed by
FTA that the Permanent World Trade Center PATH Terminal involves four
contracts—three relatively small ones and the major construction
management/general contractor (CMGC) contract. The CMGC currently has
4 prime contractor firms and at least 10 subcontractors. FTA staff told us they
expect the number of subcontractors to grow over time.

Recover Overpayments from Contractors and Promptly Resolve
Construction Claims to Control Project Costs. Change orders to contracts are
initiated by the project or contractors in response to changes in the project‘s scope
or differing site conditions. However, some change orders are a result of design
errors or omissions caused by consultant engineers. Recovery of funds paid on
these change orders offers an opportunity to reduce project costs. Maintaining
tight control over change orders and promptly resolving outstanding construction
claims are key to controlling project costs. Past projects, such as Boston’s Central
Artery/Tunnel Project, might have been able to significantly reduce costs by
aggressively pursuing opportunities to recover costs of design errors or omissions
caused by engineering consultants. For example, in 2004 we reported that the
Project had 4,805 outstanding claims with a total value of approximately
$194 million, of which 11 percent were over 4 years old.

Timely resolution of change orders is important because the longer the issues
remain unresolved, the more difficult it becomes for project managers to
determine whether the change orders were caused by design errors or omissions.
Maintaining supporting documentation is also critical. In the case of Lower
Manhattan, project managers should make sure they have a process in place for
aggressively pursuing opportunities for cost recovery in a timely fashion to
maximize savings. We were informed that the Lower Manhattan Recovery Office



                                                                                  16
has already performed a change order review on the Fulton Street project and
plans to pursue cost recovery in the future, where appropriate.

In conclusion, DOT has a critical role in the reconstruction of Lower Manhattan.
Over the past several years, the Department has significantly strengthened its
oversight of major transportation projects. Now it is critical that all of us at DOT
vigorously employ the oversight tools and resources we have at our disposal and
apply the lessons we have learned from past projects to get the most for the
taxpayer dollars that have been invested in the reconstruction of Lower Manhattan.

This concludes our prepared remarks.        We would be happy to answer any
questions you may have.




                                                                                 17
        Exhibit: High Priority Projects Funded with the $4.55 Billion the
        Federal Government Dedicated to Lower Manhattan Reconstruction
Project and                                                    Project Sponsor     Baseline Cost        Baseline
Description                                                    & Federal           Estimate &           Schedule for
                                                               Oversight           Funding Sources      Completion
                                                               Responsibility
Permanent World Trade Center PATH Terminal.                    Port Authority of   Cost: $2.2 billion         2011
This project will serve the PATH subway system, and            New York & New      ($1.92 billion in
includes pedestrian connections to the Fulton Street           Jersey              Federal funding
Transit Center to the east and to the World Financial                              and $300 million
Center and the World Financial Center Ferry Terminal           FTA oversees it     in PANYNJ
under Route 9A (West Street) to the west. Additional           through the         insurance money)
scope of this project includes the retaining walls at the      Lower Manhattan
World Trade Center site, and the security hardening of         Recovery Office
the transportation facilities.
Fulton Street Transit Center. This project is a multi-         New York State      $847 million               2010
level complex of stations to serve 12 different subway         Metropolitan        (All Federal
lines and over 275,000 daily commuter trips. The               Transportation      funding)
existing maze of narrow ramps, stairs and platforms will       Authority.
be transformed, allowing for easier transfers, better          FTA oversees it
access from street level, and will have a direct link to the   through the
new PATH Terminal and the World Trade Center site.             Lower Manhattan
                                                               Recovery Office
South Ferry Terminal Station. This project will                New York State      $420 million               2008
replace the functionally obsolete station under Battery        Metropolitan        (All Federal
Park that serves Staten Island Ferry riders. The project       Transportation      Funding)
will convert the single track, 5-car loop station into a 2-    Authority.
track, 10-car, stub end two-platform terminal with new         FTA oversees it
access for disabled riders and better connections to the       through the
renovated Staten Island ferry terminal and the R and W         Lower Manhattan
subway lines.                                                  Recovery Office
Route 9A Promenade South/ West Side. This project              New York State      $352 million               2009
will rebuild the major north-south arterial roadway in         Department of       (All Federal
Lower Manhattan between Chambers Street and Battery            Transportation.     Funding)             [Note: a small
Place, with the southern end of the project known as           FTA’s Lower                              section of this
Promenade South. The eastern sidewalk will be widened          Manhattan                                project has been
where feasible to improve accessibility, provide street        Recovery Office                          substantially
trees, and add aesthetic enhancements. On the west side,       and FHWA share                           completed.]
along the new Promenade and adjacent to Battery Park           oversight
City, a series of unique urban spaces are envisioned and       responsibilities
are being developed for varied uses.                           through
                                                               memoranda of
                                                               agreement
World Trade Center Vehicle Security Center. This               New York State      $478 million               2010
project is a vehicle security-screening center for the         Metropolitan        (All Federal
World Trade Center site. The security center will screen       Transportation      funding)
all vehicles for security threats and will be a vital          Authority.
component to the World Trade Center Master Plan.               FTA oversees it
                                                               through the
                                                               Lower Manhattan
                                                               Recovery Office




                                                                                                                 18
